Page 2 – Yvette Roubideaux, M.D., M.P.H.


We recommend that IHS:

   •   adjust a future Headquarters cost statement for $3,362,387 of unallowable section 103
       scholarship obligations that were reported in the FY 2005 cost statement,

   •   review Headquarters cost statements before and after FY 2005 and adjust a future cost
       statement for section 103 scholarship obligations that were reported,

   •   discontinue reporting section 103 scholarship obligations in its Headquarters cost
       statements,

   •   work with the Centers for Medicare & Medicaid Services to determine the appropriate
       credits to offset $9,998,438 of sections 104 and 112 scholarship obligations that were
       reported in the FY 2005 cost statement and adjust a future cost statement for these
       credits,

   •   implement procedures to ensure that it identifies and reports appropriate credits in its cost
       statements for sections 104 and 112 scholarships for which recipients had not fulfilled
       their service obligations,

   •   adjust a future Headquarters cost statement for $349,999 of unallowable obligations
       related to construction, and

   •   strengthen its policies and procedures to ensure that it does not include obligations
       reimbursed by other governmental entities in Headquarters cost statements.

In its comments on our draft report, IHS disagreed that the section 103 scholarship obligations
were unallowable under Medicare and did not explicitly address our recommendation to adjust a
future Headquarters cost statement for $3,362,387. IHS disagreed with our second and third
recommendations, did not explicitly address our fourth and fifth recommendations, and agreed
with our sixth and seventh recommendations. Nothing in IHS’s comments caused us to revise
our findings or recommendations.

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of Inspector General reports
generally are made available to the public to the extent that information in the report is not
subject to exemptions in the Act. Accordingly, this report will be posted on the Internet at
http://oig.hhs.gov/.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call
me, or your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov.
Please refer to report number A-09-07-00054 in all correspondence.


Attachment
Page 3 – Yvette Roubideaux, M.D., M.P.H.


cc:
Peter R. Orszag
Director
Office of Management and Budget

Charlene Frizzera
Acting Administrator
Centers for Medicare & Medicaid Services
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 AUDIT OF THE INDIAN HEALTH
   SERVICE HEADQUARTERS
    COST STATEMENT FOR
      FISCAL YEAR 2005




                    Daniel R. Levinson
                     Inspector General

                       August 2009
                      A-09-07-00054
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Indian Health Service (IHS), an agency in the U.S. Department of Health and Human
Services, delivers clinical and preventive health services to American Indians and Alaska
Natives. IHS provides care in more than 600 health care facilities, including hospitals and
outpatient clinics. An IHS facility can be operated by IHS, an Indian tribe, or a tribal
organization. IHS Headquarters (Headquarters) has overall responsibility for IHS programs, and
12 area offices located throughout the United States ensure that individual areas’ health care
needs are met.

Section 1880 of the Social Security Act (the Act) authorizes Medicare reimbursement to IHS
hospitals and skilled nursing facilities. Section 1911 of the Act authorizes Medicaid
reimbursement to all IHS providers for covered services. IHS providers use all-inclusive
reimbursement rates to bill for certain Medicare and Medicaid services provided in IHS and
tribal facilities. IHS develops these rates annually using financial and patient data from IHS and
certain tribal hospitals. The financial data are obtained from the hospitals’ Medicare cost reports,
and the patient data are obtained from IHS’s patient workload systems.

An IHS contractor prepares separate Medicare cost statements for Headquarters and most of the
area offices. (IHS cost statements use obligations rather than costs because, according to IHS
officials, IHS’s accounting system was not designed to accumulate costs.) The Headquarters and
area-office cost statements identify the portion of obligations from Headquarters and the area
offices that is allowable under Medicare and allocable to IHS providers. Allowable
Headquarters obligations are allocated to each area office. These obligations, combined with the
area offices’ own obligations, are then allocated among all IHS providers. Medicare cost
statements are subject to the provisions of 42 CFR part 413 and the Medicare “Provider
Reimbursement Manual” (the Manual), parts I and II, which establish standards for, among other
things, the allowability and allocability of costs.

IHS included $340.9 million of obligations in its Headquarters fiscal year (FY) 2005 cost
statement. After IHS adjusted certain obligations, this amount decreased to $199.7 million. IHS
identified $25.8 million of the $199.7 million as unallowable for Medicare reimbursement. We
reviewed the remaining $173.9 million of obligations that IHS reported in the cost statement as
allocable to the 12 area offices. This amount included $13.4 million for scholarship programs
authorized by sections 103, 104, and 112 of the Indian Health Care Improvement Act. These
programs are intended to encourage American Indians and Alaska Natives to enter health
professions and to ensure the availability of Indian health professionals, including nurses, to
serve Indians.

We performed this audit at the request of the Office of Management and Budget.




                                                 i
OBJECTIVE

Our objective was to determine whether the obligations reported in the Headquarters FY 2005
cost statement were allowable under Medicare requirements.

SUMMARY OF FINDINGS

The $173,857,292 of obligations reported in the Headquarters FY 2005 cost statement included
$3,362,387 of unallowable obligations for the section 103 scholarship program, $9,998,438 of
obligations for the sections 104 and 112 scholarship programs on which we could not express an
opinion, and $349,999 of unallowable obligations related to construction.

   •   Contrary to the Manual, part I, section 404.3, IHS reported $3,362,387 for section 103
       scholarships for recipients who were not required to provide any return benefit to IHS,
       such as providing health care services to the Indian population at the completion of their
       education programs. Because section 103 contained no requirement for any return
       benefit, the section 103 program cannot be said to have been designed to enhance the
       quality of health care in IHS or to improve the administration of IHS as required by the
       Manual, part I, section 402.1. Therefore, the obligations reported in the cost statement
       for section 103 scholarships were not related to patient care and not allowable under
       Medicare.

   •   Pursuant to the Manual, part I, section 404.3, sections 104 and 112 scholarships for
       recipients who did not fulfill required service obligations are not related to patient care
       and therefore are not allowable under Medicare. When scholarship recipients do not
       fulfill service obligations, IHS should offset the award amounts in future Headquarters
       cost statements. However, IHS did not have procedures to determine and report
       appropriate credits to offset the scholarship award amounts in its cost statements. For
       example, we identified two students who had received section 104 scholarships in
       FY 2005 for whom IHS could not determine whether service obligations were fulfilled.
       Because IHS could not identify appropriate credits to offset FY 2005 sections 104 and
       112 scholarships totaling $9,998,438, we were unable to express an opinion on this
       amount.

   •   Contrary to section 1862(a)(3) of the Act, IHS included in the cost statement $349,999
       for obligations related to construction that were reimbursed by the National Institutes of
       Health. IHS included these unallowable obligations because it did not properly identify
       and remove all obligations that were reimbursed by another governmental entity.

Based on our review of judgmentally selected obligations totaling $60,859,432 and our limited
review of IHS’s internal controls, we concluded that the remaining $160,146,468 reported in the
cost statement was allowable.




                                                 ii
RECOMMENDATIONS

We recommend that IHS:

   •   adjust a future Headquarters cost statement for $3,362,387 of unallowable section 103
       scholarship obligations that were reported in the FY 2005 cost statement,

   •   review the Headquarters cost statements before and after FY 2005 and adjust a future cost
       statement for section 103 scholarship obligations that were reported,

   •   discontinue reporting section 103 scholarship obligations in its Headquarters cost
       statements,

   •   work with the Centers for Medicare & Medicaid Services to determine the appropriate
       credits to offset $9,998,438 of sections 104 and 112 scholarship obligations that were
       reported in the FY 2005 cost statement and adjust a future cost statement for these
       credits,

   •   implement procedures to ensure that it identifies and reports appropriate credits in its cost
       statements for sections 104 and 112 scholarships for which recipients had not fulfilled
       their service obligations,

   •   adjust a future Headquarters cost statement for $349,999 of unallowable obligations
       related to construction, and

   •   strengthen its policies and procedures to ensure that it does not include obligations
       reimbursed by other governmental entities in Headquarters cost statements.

INDIAN HEALTH SERVICE COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In its comments on our draft report, IHS disagreed that the section 103 scholarship obligations
were unallowable under Medicare and did not explicitly address our recommendation to adjust a
future Headquarters cost statement for $3,362,387. IHS disagreed with our second and third
recommendations related to the section 103 program. IHS did not explicitly address our fourth
and fifth recommendations, which related to the sections 104 and 112 programs. Finally, IHS
agreed with our sixth and seventh recommendations, which related to obligations reimbursed by
another governmental entity. IHS’s comments are included in their entirety as the Appendix.

Nothing in IHS’s comments caused us to revise our findings or recommendations.




                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION..........................................................................................................................1

          BACKGROUND .................................................................................................................1
              Indian Health Service...............................................................................................1
              Medicare and Medicaid Reimbursement .................................................................1
              Cost Statements for Headquarters and Area Offices ...............................................2
              Office of Management and Budget Request............................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................................3
               Objective ..................................................................................................................3
               Scope........................................................................................................................3
               Methodology ............................................................................................................3

FINDINGS AND RECOMMENDATIONS ................................................................................4

          OBLIGATIONS FOR SCHOLARSHIP PROGRAMS.......................................................4
               Federal Requirements ..............................................................................................4
               Section 103 Scholarship Program............................................................................5
               Sections 104 and 112 Scholarship Programs ...........................................................5

          OBLIGATIONS RELATED TO CONSTRUCTION .........................................................6

          RECOMMENDATIONS.....................................................................................................6

          INDIAN HEALTH SERVICE COMMENTS AND
          OFFICE OF INSPECTOR GENERAL RESPONSE ..........................................................7
               Section 103 Scholarship Program............................................................................7
               Sections 104 and 112 Scholarship Programs ...........................................................8

APPENDIX

          INDIAN HEALTH SERVICE COMMENTS




                                                                    iv
                                             INTRODUCTION

BACKGROUND

Indian Health Service

The Indian Health Service (IHS), an agency in the U.S. Department of Health and Human
Services, delivers clinical and preventive health services to American Indians and Alaska
Natives. IHS provides care in more than 600 health care facilities, including hospitals and
outpatient clinics. An IHS facility can be operated by IHS, an Indian tribe, or a tribal
organization.

IHS Headquarters (Headquarters) has overall responsibility for IHS programs. Twelve area
offices located throughout the United States carry out the IHS mission by overseeing and
administering programs that are designed to address individual areas’ specific health care needs.
Each area office provides regional support services to health care providers (e.g., hospitals,
outpatient clinics, and community health centers) within its jurisdiction.

Medicare and Medicaid Reimbursement

The Indian Health Care Improvement Act (IHCIA) of 1976 (P.L. No. 94-437) added section
1880 of the Social Security Act (the Act) to authorize reimbursement to IHS hospitals and skilled
nursing facilities for services provided to Medicare-eligible individuals. Further, section 432 of
the Medicare, Medicaid, and SCHIP Benefits Improvement and Protection Act of 2000
(P.L. No. 106-554) and section 630 of the Medicare Prescription Drug, Improvement, and
Modernization Act of 2003 (P.L. No. 108-173) amended section 1880 of the Act to authorize
payments for Medicare Part B services provided in IHS hospitals and ambulatory care clinics.
The IHCIA also added section 1911 of the Act to authorize Medicaid reimbursement to all IHS
providers for covered services.

IHS providers use all-inclusive reimbursement rates to bill for certain Medicare and Medicaid
services provided in IHS and tribal facilities. IHS develops these rates annually using financial
and patient data from IHS and certain tribal hospitals. The financial data are obtained from the
hospitals’ Medicare cost reports, and the patient data are obtained from IHS’s patient workload
systems.

IHS calculates one set of reimbursement rates for the lower 48 States and one set of rates for
Alaska: 1

    •   Medicare outpatient per-visit rate,

    •   Medicare Part B inpatient ancillary per diem rate,



1
 The all-inclusive reimbursement rates developed by IHS using the fiscal year (FY) 2005 Medicare cost reports were
finalized and used for reimbursement purposes in FY 2007.


                                                        1
    •    inpatient hospital per diem rate (excluding physician/practitioner services), and

    •    outpatient per-visit rate (excluding Medicare). 2

Cost Statements for Headquarters and Area Offices

IHS contracts with Eighteen Nineteen Group, Inc. (Eighteen Nineteen), to prepare separate cost
statements for Headquarters and 10 of the 12 area offices. 3 IHS cost statements use obligations
rather than costs because, according to IHS officials, IHS’s accounting system was not designed
to accumulate costs. The Centers for Medicare & Medicaid Services (CMS), which administers
the Medicare program, and IHS agreed that IHS could use obligations instead of costs when
preparing its cost statements.

The Headquarters and area-office cost statements identify the portion of obligations from
Headquarters and the area offices that is allowable under Medicare and allocable to IHS
providers. Allowable Headquarters obligations are allocated to the 12 area offices. These
obligations, combined with the area offices’ own obligations, are then allocated among all IHS
providers. Headquarters and area office obligations that are allocated to IHS hospitals are
included in each hospital’s cost report.

Medicare cost statements are subject to the provisions of 42 CFR part 413 and the Medicare
“Provider Reimbursement Manual” (the Manual), parts I and II, which establish standards for,
among other things, the allowability and allocability of costs. The Manual, part I, chapter 4,
addresses the costs of educational programs.

IHS included $340.9 million of obligations in its Headquarters cost statement for FY 2005
(October 1, 2004, through September 30, 2005). After IHS adjusted certain obligations, this
amount decreased to $199.7 million. IHS identified $25.8 million of the $199.7 million as
unallowable for Medicare reimbursement and allocated the remaining $173.9 million to the 12
area offices.

Office of Management and Budget Request

The Office of Management and Budget requested that we evaluate a sample of IHS cost
statements that were used in the development of the all-inclusive Medicare and Medicaid
reimbursement rates. We reviewed the FY 2005 cost statement for Headquarters, the subject of
this audit. Separate reports will address the FY 2005 cost statements for three area offices:
Navajo (A-07-08-02721), Oklahoma City (A-06-07-00080), and Phoenix (A-09-07-00086).




2
 The inpatient hospital per diem and outpatient per-visit rates are the encounter rates applicable to Medicaid
services.
3
 Cost statements are not prepared for the California and Portland area offices because the areas for which they are
responsible do not have any IHS hospitals.


                                                          2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the obligations reported in the Headquarters FY 2005
cost statement were allowable under Medicare requirements.

Scope

We reviewed the $173,857,292 of obligations that IHS reported in its Headquarters FY 2005 cost
statement as allocable to the 12 area offices.

We did not perform a detailed review of IHS’s internal controls. We limited our review to
obtaining an understanding of IHS’s and Eighteen Nineteen’s policies and procedures related to
the accounting, accumulation, and reporting of obligations. We performed our fieldwork at the
Headquarters offices in Rockville, Maryland, and Albuquerque, New Mexico, from February
2007 through June 2008.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    reconciled IHS’s obligations to its FY 2005 appropriations;

   •    reviewed the explanatory notes for the cost statement;

   •    reviewed IHS’s reclassifications and adjustments of obligations;

   •    reviewed a judgmental sample of obligations;

   •    reviewed the method that IHS used to allocate Headquarters obligations to the 12 area
        offices;

   •    verified whether the obligations allocated to the area offices were accurate;

   •    interviewed IHS and Eighteen Nineteen officials; and

   •    consulted with CMS officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.



                                                 3
                                 FINDINGS AND RECOMMENDATIONS

The $173,857,292 of obligations reported in the Headquarters FY 2005 cost statement included
$3,362,387 of unallowable obligations for the section 103 scholarship program, $9,998,438 of
obligations for the sections 104 and 112 scholarship programs on which we could not express an
opinion, and $349,999 of unallowable obligations related to construction. Based on our review
of judgmentally selected obligations totaling $60,859,432 and our limited review of IHS’s
internal controls, we concluded that the remaining $160,146,468 reported in the cost statement
was allowable.

OBLIGATIONS FOR SCHOLARSHIP PROGRAMS

In FY 2005, Headquarters provided $13.4 million in grant funds to educational institutions,
which, in turn, provided scholarships to qualified students under programs authorized by sections
103, 104, and 112 of the IHCIA. The sections 103 and 104 scholarship programs are intended to
encourage American Indians and Alaska Natives to enter health professions and to ensure the
availability of Indian health professionals to serve Indians. 4 The section 112 scholarship
program is intended to increase the number of nurses, nurse midwives, nurse anesthetists, and
nurse practitioners who deliver health care services to Indians. 5

Federal Requirements

Federal regulations (42 CFR § 413.9) state that reimbursement to providers for services delivered
to Medicare beneficiaries must be based on “the reasonable cost of services . . . related to the
care of beneficiaries.” Such reasonable costs include “all necessary and proper costs incurred in
furnishing . . . services.” Section 413.9 also states that “necessary and proper costs” are “costs
that are appropriate and helpful in developing and maintaining the operation of patient care
facilities and activities.”

The Manual, part I, chapter 4, provides guidance on which costs are related to patient care and
therefore allowable under 42 CFR § 413.9. Section 402.1 of chapter 4 states: “[T]o be an
allowable cost, the educational activity must be . . . designed to enhance the quality of health
care in the institution or to improve the administration of the institution.” In its discussions of
particular examples of allowable educational programs, chapter 4 makes clear that the institution
must receive a benefit, such as the recipient of educational benefits providing services in the
institution after completing the educational program. Section 404.3 states that the costs related
to an educational program not specifically discussed in chapter 4 may still be allowable if the
costs “meet the conditions described in this chapter.” The section then provides an example of
an allowable program: “. . . [A]n educational program for which costs may be allowable is a
program where nurses are sent to college to obtain Bachelor of Science degrees in nursing,


4
 P.L. No. 96-537 amended section 103 of the IHCIA to provide scholarships for health profession preparatory and
pregraduate education. P.L. No. 100-713 amended section 104 of the IHCIA to provide scholarships to Indians
enrolled full time in an accredited school of medicine or another professional health field.
5
    P.L. No. 100-713 amended the IHCIA to authorize funding for section 112 nursing scholarships.


                                                          4
related health care fields, or other advanced training courses in such subjects on the condition
that they work for the hospital for a specific period following completion of the program.”

Section 103 Scholarship Program

Under the section 103 scholarship program, IHS awarded to educational institutions $3,362,387
for health professions preparatory and pregraduate scholarships for American Indian and Alaska
Native students. These students had, among other qualifications, successfully completed high
school or a high school equivalency program and had enrolled in courses that would prepare
them for acceptance into professional health schools or lead to a bachelor’s degree in specific
preprofessional areas, such as premedicine and predentistry. To be eligible for a section 103
scholarship, a recipient must indicate on his or her application the intent “to provide health
services to Indians upon completion of health professions education or training” (42 CFR
§§ 136.322 and 136.372).

Contrary to the Manual, part I, section 404.3, the Headquarters cost statement included
$3,362,387 for section 103 scholarships for recipients who were not required to provide health
care services to the Indian population at the completion of their education programs. Because
section 103 contained no requirement for any return benefit to IHS, such as a service obligation,
the section 103 program cannot be said to have been designed to enhance the quality of health
care in IHS or to improve the administration of IHS as required by the Manual, part I, section
402.1. Therefore, the obligations reported in the cost statement for section 103 scholarships
were not related to patient care and not allowable under Medicare.

Sections 104 and 112 Scholarship Programs

IHS awarded to educational institutions $8,288,181 for health professions scholarships under
section 104 and $1,710,257 for nursing scholarships under section 112. Section 104 scholarships
were awarded to American Indian and Alaska Native students who had enrolled in full-time and
part-time courses of study in health professions needed by IHS. Section 112 scholarships were
awarded to students who had enrolled in full-time study programs leading to a degree as a nurse,
nurse midwife, nurse anesthetist, or nurse practitioner.

Upon acceptance of a section 104 or 112 scholarship, the recipient is subject to a service
obligation or payback requirements if he or she does not fulfill the obligation. Each recipient
must sign an IHS contract that requires 1 year of service for every year of scholarship support
that he or she receives, with a minimum obligation of 2 years. The recipient may fulfill the
service obligation in IHS, a program conducted under a contract or compact entered into under
the Indian Self-Determination Act, an urban Indian organization assisted under Title V of the
IHCIA, or a private practice in a designated health professional shortage area addressing the
health care needs of a substantial number of Indians. 6

IHS requires each scholarship recipient to provide updates each quarter or semester on his or her
progress in the education program and, after graduation, to provide documentation verifying

6
 For the section 104 program, the service obligation may also be met by providing services to the tribe in which the
scholarship recipient is enrolled.


                                                         5
employment in one of the approved areas. A recipient fails to meet the contractual requirements
if he or she does not complete the education for which the scholarship was awarded or begin or
complete the service obligation. Once in default, the recipient is required to repay all scholarship
funds paid to him or her. 7

Pursuant to the Manual, part I, section 404.3, sections 104 and 112 scholarships are allowable for
Medicare reimbursement as long as recipients fulfill required service obligations at the end of
their education programs. Conversely, scholarships for recipients who do not fulfill service
obligations are not related to patient care and therefore are not allowable under Medicare.

When scholarship recipients do not fulfill service obligations, IHS should offset the award
amounts in future Headquarters cost statements. However, IHS did not have procedures to
determine and report appropriate credits to offset scholarship award amounts in its cost
statements. For example, we identified two students who had received section 104 scholarships
in FY 2005 for whom IHS could not determine whether service obligations were fulfilled. IHS
officials verified that these recipients did not work for IHS. However, the officials informed us
that they could not determine whether the obligations were fulfilled in another approved area.
Because IHS could not identify appropriate credits to offset sections 104 and 112 scholarships
totaling $9,998,438 that were included in the Headquarters cost statement, we were unable to
express an opinion on this amount.

OBLIGATIONS RELATED TO CONSTRUCTION

Section 1862(a)(3) of the Act states that no payment may be made for any expenses incurred for
services that are paid for directly or indirectly by a governmental entity.

IHS appropriately removed $3.9 million from the Headquarters cost statement for obligations
related to construction of the Rocky Mountain Laboratory in Hamilton, Montana, that were
reimbursed by the National Institutes of Health. However, contrary to section 1862(a)(3) of the
Act, IHS included $349,999 for salaries, fringe benefits, and travel obligations related to
construction of the laboratory that were also reimbursed by the National Institutes of Health.
IHS included these unallowable obligations because it did not properly identify and remove all
obligations that were reimbursed by another governmental entity.

RECOMMENDATIONS

We recommend that IHS:

    •    adjust a future Headquarters cost statement for $3,362,387 of unallowable section 103
         scholarship obligations that were reported in the FY 2005 cost statement,

    •    review the Headquarters cost statements before and after FY 2005 and adjust a future cost
         statement for section 103 scholarship obligations that were reported,

7
 A recipient of a section 104 scholarship is liable to repay up to three times the amount of all scholarship funds paid
to him or her and to the school on his or her behalf, plus interest, if the recipient fails to begin or complete the
required service obligation or does not properly defer the service obligation.


                                                           6
   •   discontinue reporting section 103 scholarship obligations in its Headquarters cost
       statements,

   •   work with CMS to determine the appropriate credits to offset $9,998,438 of sections 104
       and 112 scholarship obligations that were reported in the FY 2005 cost statement and
       adjust a future cost statement for these credits,

   •   implement procedures to ensure that it identifies and reports appropriate credits in its cost
       statements for sections 104 and 112 scholarships for which recipients had not fulfilled
       their service obligations,

   •   adjust a future Headquarters cost statement for $349,999 of unallowable obligations
       related to construction, and

   •   strengthen its policies and procedures to ensure that it does not include obligations
       reimbursed by other governmental entities in Headquarters cost statements.

INDIAN HEALTH SERVICE COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In its comments on our draft report, IHS disagreed that the section 103 scholarship obligations
were unallowable under Medicare and did not explicitly address our recommendation to adjust a
future Headquarters cost statement for $3,362,387. IHS disagreed with our second and third
recommendations related to the section 103 program. IHS did not explicitly address our fourth
and fifth recommendations, which related to the sections 104 and 112 programs. Finally, IHS
agreed with our sixth and seventh recommendations, which related to obligations reimbursed by
another governmental entity. IHS’s comments are included in their entirety as the Appendix.

Nothing in IHS’s comments caused us to revise our findings or recommendations.

Section 103 Scholarship Program

Indian Health Service Comments

IHS stated that it believes that the section 103 program is a cost of operating the IHS programs
and should therefore be considered a cost under Medicare payment rules. IHS also commented
that the section 103 program was designed to attract American Indian and Alaska Native students
into IHS health care programs and to help IHS achieve its mission of raising the health status of
American Indians and Alaska Natives to the highest level. IHS disagreed with our second and
third recommendations for the same reasons.

Office of Inspector General Response

We agree that the section 103 scholarship program was designed to attract American Indian and
Alaska Native students into IHS health care programs and is a cost of IHS operations. However,



                                                 7
chapter 4 of the Manual is clear that the costs of educational programs are allowable under
Medicare only if the institution receives a benefit. Because the section 103 program does not
have a required service obligation or other return benefit to IHS, there is no guarantee that
recipients of section 103 scholarships will enter IHS health care programs or provide health care
services to the Indian population.

Sections 104 and 112 Scholarship Programs

Indian Health Service Comments

IHS did not explicitly address our recommendations that it work with CMS to determine the
appropriate credits to offset sections 104 and 112 scholarship obligations and implement
procedures to identify and report appropriate credits in its cost statements. IHS commented that
the scholarship award amounts in future cost statements should be offset for recipients who fail
to complete their required service obligations. However, IHS noted that situations do arise when
recipients are unable to fulfill their service obligations due to illness or a family crisis and that
students may be granted waivers of payback requirements. IHS stated that it strongly disagrees
that future cost reports should be adjusted for such forgiveness.

Office of Inspector General Response

Chapter 4 of the Manual is clear that the costs of educational programs are allowable only if the
institution receives a benefit. However, if recipients were unable to fulfill their service
obligations due to hardship, IHS can work with CMS to determine the appropriate actions for
those section 104 and 112 scholarship obligations.




                                                  8
APPENDIX
APPENDIX
 Page 1 of 4
APPENDIX
 Page 2 of 4
APPENDIX
 Page 3 of 4
APPENDIX
 Page 4 of 4
